C@QCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No.

ERIC D. SPEIDELL, ET AL.,
Petitioners,
¥.
UNITED STATES OF AMERICA, THROUGH ITS
AGENCY OF THE INTERNAL REVENUE SERVICE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6800 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of March, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL MOTARY-State of Nebraska i Chby
: RENEE J. GOSS 9. *

 

My Comm. Exp. September 5, 2023

Notary Public Affiant 40636
